No. 19-1341

In the Supreme Court ofthe United States
RICHARD A. VAN AUKEN, TRUSTEE AND
RICHARD A. VAN AUKEN, BENEFICIARY,
PETITIONERS,
v.
FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; AND
KAREN AUBREY, ESQ.,
RESPONDENTS.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEW MEXICO COURT OF APPEALS

PETITION FOR REHEARING
RICHARD A. VAN AUKEN,
TRUSTEE AND BENEFICIARY
pro se
223 North Guadalupe Street, #605
Santa Fe, New Mexico 87501
917/216-0523
sftrustcase@swcp .com
LEGAL PRINTERS LLC • Washington, DC • 202-747-2400 • legalprinters.com

TABLE OF CONTENTS
Table of Contents.......
Table of Authorities ...
Petition for Rehearing

1

n
1

I. New Facts Strengthen Case for Requested
Due Process Review ...................................... 1
II. Amici Brief Documents Relevance of Due
Process Question in New Mexico and in
Many Other States ......................................... 2
III. Senate Committee Hearing on Barrett Nom­
ination Provides Contrast Between Equity
Powers and Legal Powers of U.S. Courts ... 2
Due Process Affirmation Frames Equity
Loophole Set Forth in Petition and
Amici Brief................................................ 3
"Government of Laws, Not Men" Does
Not Extend to Equity Rulings .............. 4
Judicial Bias Concerns are of Greater
Significance in Equity Courts............... 5
IV. Decision in McGirt v. Oklahoma Provides
Legal Rationale for Redressing Violation of
Law by Equity Rulings in Lower Courts .... 7
Contracts are Created by Ancestors ....
7
Ancestral Contracts Are Violated with
Impunity ..........................................
8
8
Ancestral Contracts Can Be Enforced
Ancestral Contracts Can Be Voided ...
9
V. Petition Presents Unique Opportunity to
Curb Current Equity Theft Abuses by
Predatory Attorneys and Cooperating
Judges in Lower Courts .........................
10
12
Conclusion

l

TABLE OF AUTHORITIES
Cases:
McGirt v. Oklahoma,
591 U.S.___ (2020)

1, 7, 8, 9, 13

Constitution of the United States:
Amendment V: Due Process .....................
Amendment XIV, Section 1: Due Process

3
3

Treatise
Loring, A Trustee's Handbook (2006)

4

Other Authorities
Justice Barrett Senate Confirmation Hearings:
Re: U. S. Supreme Court
Transcript for Day Two
(October 13, 2020)
2, 3, 4, 5, 6, 11
Re: Seventh Circuit Court of Appeals
Report dated September 22, 2017
(for hearing September 6, 2017) ...
5, 6

n

PETITION FOR REHEARING
Pursuant to Rules 44.2 and 14.1(c), Petitioners
respectfully petition this Court for rehearing.
References are made herein to the Body and
Appendices of the underlying Petition for a Writ of
Certiorari by Petitioners in this Case (No. 19-1341).
I. New Facts Strengthen Case for Requested
Due Process Review
In accordance with the requirement set forth in
Rule 44-2, the grounds for this Petition for Rehearing
are limited to the following three new "intervening
circumstances [that have] a substantial or
controlling effect" on arguments in the Petition for
Writ of Certiorari that was entered on June 1, 2020:
(i) the Motion for Leave to File Brief of Amici
Curiae and Brief for Center for Estate Admini­
stration Reform, et al. in Support of Petitioners
that was entered on July 6, 2020;
(ii) this Court's decision in McGirt v. Oklahoma
(No. 18-9526) decided on July 9, 2020; and
(iii) the Confirmation Hearings of the U.S. Senate
Judiciary Committee for Nominee Amy Coney
Barrett held on October 12, 13, and 14, 2020.
As detailed in the following sections, each of the
above "intervening" events develops and strengthens
the argument for review of the Due Process Question
presented in the underlying Petition. The Question
addresses the abuse of state court equity powers in
failing to enforce a valid trust contract that had been
breached by equity theft, the unlawful redirection of
estate assets to an outside party . [Pet., p.4, ft 2-3]

- 1-

II. Amici Brief Documents Broad Relevance of
Due Process Question in New Mexico and in
Many Other States
Amici including a nonprofit foundation in North
Carolina, an informal coalition of people in New
Mexico, and several individuals in these two states
submitted an Amici Brief in support of the June
Petition in this Case where the Amici Brief was
considered by this Court prior to denial of the
underlying Petition. Petitioners call to the attention
of this Court that among the individuals are at least
two who are currently in active cases in New Mexico
that directly involve the Due Process Question
presented and two more for whom relevant cases are
now closed. Petitioners would also like to note that
the foundation and coalition are in contact with large
numbers (hundreds) of other individuals who are
experiencing or who have experienced such Due
Process losses as a result of rulings on law by judges
exercising the equity powers of the state courts in
New Mexico and approximately twenty other states.
The relevance of these many current and past
amici cases is further increased by two additional
new intervening events presented below.
III. Senate Committee Hearing on Barrett
Nomination Provides Contrast Between
Equity Powers and Legal Powers of U.S.
Courts
The recent public hearings held by the Judiciary
Committee of the United States Senate regarding the
confirmation of Amy Coney Barrett, a legal scholar
and judge (now justice), have provided Petitioners
and others with fresh insight into the workings of the
-2-

law and the legal powers of the courts. The hearings
also provided contrast with state court equity powers
that use fairness and good conscience to resolve
matters involving wills, estates, trusts, probate,
guardianship, and injuctive relief.
Some of the testimony during Day Two of the
hearings, October 13th, provides direct support to
the argument for review of the Due Process Question
presented in the Petition.
Due Process Affirmation Frames Equity
Loophole Set Forth in Petition and Amici Brief
In a discussion of U. S. Supreme Court precedent
regarding rights (like abortion) "grounded" but "not
expressed" in the Constitution, Judge (now Justice)
Barrett stated:
So both the Fourteenth and Fifth Amend­
ments protect life or provide that the state
cannot take life, liberty, or property without
due process of law. 1
The Petition and the Amici Brief both address a
Constitutional right (that the state cannot take
property without due process of law) that appears to
be widely violated by equity courts in the taking of
estate property while willfully ignoring valid
contracts that are breached in the process. This
creates another, related Question: Has a loophole
been carved out of the Constitutional right to Due
Process in the taking of property that allows state
courts to ignore valid contracts as part of their
"equity" powers?

1 See: https://www.rev.com/blog/transcripts/amy-coney-barrettsenate-confirmation-hearing-day-2-transcript at 46:24

-3-

"Government of Laws, Not Men" Does Not
Extend to Equity Rulings
In supporting the originalism and textualism
philosophy of her mentor Justice Antonin Scalia,
Judge (now Justice) Barrett stated:
Got a law, a government of laws, not of men.2
She further detailed her relience on the law as
follows:
Because I think that both statutes and the
Constitution are law. They derive their
democratic legitimacy from the fact that they
have been enacted, in the case of statutes, by
the people’s representatives, or in the case of
the Constitution, through the Constitution
making process. And I, as a judge, have an
obligation to respect and enforce only that
law that the people themselves have
embraced.3
This testimony appears to be not about equity
rulings or decisions rendered by a court in exercising
its equity powers. Since their inception in medieval
England, equity powers (as exercised by the Lord
Chancellor and the Chancery Courts) were always
about "fairness" and rulings made "in good
conscience." The powers have always been exercised
by a person unconstrained by much in the way of
written guidence.4 There are several general
guidelines or "maxims" of equity such as "one who

2 Ibid at 55:31
3 Ibid at 01:31:07
4 Loring, A Trustee’s Handbook, Chapter One

-4-

seeks equity must do equity," but for the most part
equity rulings are unappealable decisions of
individual judges (persons, both men and women).
Equity rulings, thus, do not seem to be part of a
"government of laws, not of men."
A relevant maxim of equity states that "equity
must follow the law." Accordingly, the Petition and
the Amici Brief create a more granular Due Process
Question for this Court: Under the U. S.
Constitution, does an equity ruling made by a state
court need to respect valid written estate contracts?
Judicial Bias Concerns are of Greater
Significance in Equity Courts
Perhaps because of controversy arising from an
earlier confirmation hearing involving Judge (now
Justice) Barrett, the direct question of judicial bias
was addressed right at the beginning of the recent
hearing:
Chairman Lindsey Graham: (17:56):
Can you set aside whatever Catholic beliefs
you have regarding any issue before you?
Amy Coney Barrett: (18:02):
I can. I have done that in my time on the
Seventh Circuit. If I stay on the Seventh
Circuit, I’ll continue to do that. If I’m
confirmed to the Supreme Court, I will do
that still.5
The earlier confirmation hearing was held on
September 6, 2017 on the nomination of then
Professor Barrett to the Seventh Circuit Court of

5 Ibid

-5-

Appeals and the controversy arose from the following
statement on judicial bias made by Senator Diane
Feinstein regarding Professor Barrett’s Catholic
beliefs:
I think in your case, professor, when you
read your speeches, the conclusion one draws
is that the Dogma lives loudly within you.
And that’s of concern when you come to big
issues that large numbers of people have
thought for, for years in this country.6
The "government of laws, not of men” philosophy
properly responds to this question of judicial bias
because judicial rulings are built from and follow the
language of the written law that applies.
However, no such written starting point or
building blocks exist for equity matters. The judge is
to reach a decision on the basis of "fairness” and
"good conscience” presumably by "balancing the
equities” between the parties. There is no check on
any personal bias a judge may have. Petitioner
argues that "dogma” every bit as powerful as that of
the Catholic beliefs cited by Senator Graham is
present in most judges, namely, the set of rules,
procedures, standards, relationships, and business
structures promulgated by the legal profession in
practice, in law schools, and in the legislature.
Accordingly, the Petition and the Amici Brief create
for this Court two key aspects of the Due Process

6 See: https://www.independent.co.uk/news/world/americas/uspohtics/amy-coney-barrett-supreme-court-diana-feinstein-ruthbader-ginsburg-b512741 .html

-6-

Question regarding the unlawful redirection of estate
assets to outsiders or unintended others:
(i) Do predatory lawyers have a distinct judicial
advantage in equity rulings against non-attorney
family members in estate administration?
(ii) Do cooperating judges usually favor lawyers
from their own local bar over non-attorney family
members in estate administration?
IV. Decision in McGirt v. Oklahoma Provides
Legal Rationale for Redressing Violations
of the Law by Equity Rulings in Lower
Courts
There is a sufficient amount of correlation between
key elements in the recent decision in McGirt v.
Oklahoma and the principal facts in the Van Auken
v. Catron, et al. (2006) case underlying the Petition
and the Amici Brief to suggest that a review of Van
Auken might usefully produce a result similar to
McGirt. The contracts in both cases were created by
parties now deceased, the contracts were violated or
breached on more than one occasion, someone
referenced in the written terms of the contract
recently attempted enforcement of contract terms,
and an authority in each case had the power to void
the contract but didn't exercise that power.
Contracts Are Created by Ancestors
The contract in McGirt is a 1833 treaty between
the U. S. Congress and the Creek Nation of Indians
as reaffirmed in 1866. [McGirt; pp.1-2, § (a); pp.3-6]
The contract in Van Auken is a 1978 family trust
agreement between Petitioners' parents (mother and

-7-

step-father) and a trustee (that was initially
themselves, jointly) as amended in 1992.
All parties involved in the creation and excution of
these contracts are currently deceased.
Ancestral Contracts Are Violated with Impunity
Promises made by the U. S. Congress to the Creek
Nation of Indians were broken on numerous
occasions since 1833. [McGirt; p.2, §(b)(2); pp.8-13
and p.2, §(b)(3); pp.13-17]
Following the death of Petitioners' mother in 1992,
terms of the trust agreement were breached on two
separate occasions by the first successor trustee
(Petitioners' step-father) with the legal assistance of,
in the first breach, Respondent Peter F. Wirth, Esq.
and, in the second breach, Respondent Fletcher R.
Catron, Esq. Both breaches redirected family
property held by the trustee under the terms of the
family trust contract to an outsider (a hospice nurse)
not named as a beneficiary in the contract. [Pet:
pp. 34a-38a]
Notwithstanding evident violation of the contract
terms, both contracts still exist today.
Ancestral Contracts Can Be Enforced
Jimmy McGirt, an enrolled member of the
Seminole Nation covered by the Creek treaty,
petitioned to enforce the terms of the treaty in
connection with his rights to a criminal trial by the
U. S. Courts instead of the state courts of Oklahoma.
[McGirt; p.l, lines 10-12]
Petitioner Richard A. Van Auken, a beneficary
named in the family trust contact of 1978 [Pet: p.57a,
§ii] and, since 2005, its third successor trustee in
accordance with a 1992 contract amendment, has
-8-

sought to enforce the terms of the family trust
contract against (i) predatory attorneys responsible
for the redirection of valuable family property to an
outsider and (ii) cooperating judges in the New
Mexico State Courts responsible for a failure to
recognize the validity and to determine the meaning
of the trust contract in a long series of equity
decisions. [Pet: pp.36a-38a]
Ancestral Contracts Can Be Voided
The U. S. Congress has the power to "disestablish"
the federal reservation created by the 1833 treaty.
[McGirt; p.2, § (b)(1); pp.6-8]
The New Mexico State Courts have the power to
abbrogate Petitioners' family trust contract of 1978.
Neither the U.S. Congress or the New Mexico State
Courts ever exercised their respective power to void
the treaty or family trust contract.
Summarizing the substantial and controlling facts
that the decision in McGirt has provided to the
arguments presented in the Petition and in the Amici
Brief, the reversal of state court rulings on
jurisdiction is based on the validity of an 1833
contract that, in spite of numerus violations of the
contract terms by one party (the U. S. Congress),
Jimmy McGirt's attempt to enforce the contract
terms succeeds as the contract is still in force
because the only party with the power to void the
contract (the U. S. Congress) failed to do so in an
explicit manner as required.
Accordingly, the Petition and the Amici Brief create
for this Court two more key aspects of the Due
Process Question regarding the unlawful redirection

-9-

of estate assets to outsiders or unintended others in
this Case:
(i) Should the claims brought against the
Respondents in 2006 based on the terms of a
family trust contract be reinstated because the
contract, though being breached and ignored by
the state courts of New Mexico, is still valid
because these same courts have failed to
explicitly void the contract?
(ii) Should this standard requiring explicit action
by state courts if the terms of a valid contract are
to be voided or breached, be applied to litigation
in all equity court cases nationwide?
V. Petition Presents Unique Opportunity to
Curb Current Equity Theft Abuses by
Predatory Attorneys and Cooperating
Judges in Lower Courts
The Amici Brief documents the broad national
crisis in estate trafficking or probate abuse - or
equity theft as this situation is presented in the
Petition. The trillion-dollar-per-year wealth transfer
market is a prime opportunity for estate planners
and attorneys. And it is growing. Also growing is the
amount of illicit activity to redirect assets built up
over a lifetime to individuals other than those named
in wealth transfer plans and contracts. Property is
being stolen from estates and a growing number of
family member beneficiaries are being stripped of
assets while a growing number of predatory
attorneys backed up by cooperating judges in the
state courts are getting rich in this racket involving
redirected estate property.

- 10-

This Petition for Rehearing is a final attempt to
convince this Court that this equity theft racket is
worth addressing and that a timely opportunity to do
so exists right now. As Judge (now Justice) Barrett
stated during Day Two of her confirmation hearing
in the U.S. Senate:
[CJourts, because they are reactive, can’t
reach out to right wrongs that don’t come to
them in the situation of a case or
controversy.7
So a judge can’t walk in one day and say, ” I
feel like visiting the question of healthcare
and telling people what I think.” We can’t
even think about the law or how it would
apply until litigants bring a real live case
with real live parties and a real life dispute
before us.8
Van Auken v. Catron, et al. (2006) represents
fourteen years of state court litigation over the
redirection from the Seton Family Trust of property
in Santa Fe formerly owned by naturalist Ernest
Thompson Seton. Respondents include Fletcher R.
Catron, Esq., great-grandson of Thomas B. Catron,
Esq., one of the first U.S. Senators for New Mexico,
and Peter F. Wirth, Esq., the current Majority
Leader of the New Mexico State Senate.
This is a real live Case that involves real live
parties and a real life dispute. Moreover, this Case
contains a five generation, ninety-year sweep of time
that is not uncommon in large equity theft cases.

7 Op. Cit. rev.com/transcripts at 04:27:23
8 Ibid at 04:22:23

- 11 -

A case like this one does not come along very often.
Petitioners have done their best in bringing a
significant case to this Court for its review. [Pet: pp.
iii-vii]
Moreover, time is of the essence as the equity theft
racket appears to be growing. The money being made
from redirected estate assets is substantial while
enforcement is vitually non-existent. And the flow of
money has been spread to a variety of related
businesses and professionals that have come to
depend on this income. One suspects financial ties
between predatory attorneys and cooperating judges.
While the underlying Case in the Petition and the
Amici Brief is a civil matter, equity theft is really a
criminal act and the organized equity theft
racketeers qualify as a criminal enterprise. One
thing seems certain: the predatory attorneys and
cooperating judges at the center of these various
equity theft schemes are not going to stop their illicit
practices on their own. Some sort of serious legal
and/or enforcement activty must be brought to bear
to force them to stop.
This Court should come to see the illicit redirection
of estate assets to outsiders or unintended others by
predatory attorneys and cooperative state court
judges as a significant priority in allocating its
calendar time.
CONCLUSION
In the above five sections, significant new
information pertaining to the June 1, 2020 Petition
for a Writ of Ceriorari has been presented that
provides this Court with (i) notice of a national crisis
in state court abuse of equity powers that affects
- 12 -

millions of people, redirects tens of billions of dollars
in estate assets annually, and threatens more than a
trillion dollars in inter-generational wealth transfer
each year; (ii) an understanding of how the arbitrary
judge-based nature of these equity powers that the
state courts are abusing is quite different from the
better known encoded-law-based operation of judicial
legal powers; (iii) the creation of additional support
for the Due Process Question of the Petition through
six more detailed Questions9 about how valid estate
contracts might be handled in an equity proceeding;
(iv) a fourteen-year old case (Petitioners' Case) that
is ready to be used to begin to curb the growth of
equity abuse and equity theft; and (v) a legal
framework from McGirt that could be used to
enhance enforcement of estate contracts.
For all of these five reasons, this Petition for
Rehearing should granted and the Due Process
Question presented in the June 1st Petition for a
Writ of Certiorari should be re-considered for review
by this Court.
Respectfully submitted
Richard A. Van Auken, Trustee, pro se, and
Richard A. Van Auken, Beneficiary, pro se
223 North Guadalupe Street, #605
Santa Fe, New Mexico 87501
917/216-0523
sftrustcase@swcp.com

9 Find these six new Questions on pages 3, 5, 7, 7, 10, and 10
above

- 13-

CERTIFICATE OF PETITIONER.
I hereby certify that this Petition for Rehearing is
presented in good faith and not for delay and is
restricted to the grounds specified in Rule 44.2.

Richard A. Van Auken. Trustee '

